      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




April 20, 2011

TO:              Francis S. Collins, M.D., Ph.D.
                 Director
                 National Institutes of Health


FROM:            /Daniel R. Levinson/
                 Inspector General


SUBJECT:         Appropriations Funding for National Heart, Lung, and Blood Institute Contract
                 HHSN268-2006-4276G With WorldTravelService (A-03-10-03113)


The attached final report provides the results of our review of appropriations funding for
National Heart, Lung, and Blood Institute contract HHSN268-2006-4276G with
WorldTravelService.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. We look forward to receiving your final management decision within
6 months. Please refer to report number A-03-10-03113 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   APPROPRIATIONS FUNDING
FOR NATIONAL HEART, LUNG, AND
  BLOOD INSTITUTE CONTRACT
    HHSN268-2006-4276G
  WITH WORLDTRAVELSERVICE




                      Daniel R. Levinson
                       Inspector General

                          April 2011
                        A-03-10-03113
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                              INTRODUCTION

BACKGROUND

The National Heart, Lung, and Blood Institute (NHLBI) is 1 of 27 institutes and centers of the
National Institutes of Health (NIH), an agency of the U.S. Department of Health & Human
Services (HHS). The NIH Office of the Director sets policy and plans, manages, and coordinates
NIH-wide programs and activities. Like all Federal agencies, NHLBI is required to comply with
appropriations statutes when acquiring supplies and services with appropriated funds.

Federal Appropriations Statutes

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). A fiscal year appropriation may be obligated only to meet a legitimate, or bona fide,
need arising in, or in some cases arising prior to but continuing to exist in, the appropriation’s
period of availability (31 U.S.C. § 1502(a)). Unless otherwise specified in the appropriation, the
period of availability for most funds is the fiscal year for which the appropriation was made.

Bona fide needs may involve transactions that cover more than 1 fiscal year, depending on the
nature of the services involved: “The general rule is that the fiscal year appropriation current at
the time the contract is made is chargeable with payments under the contract, although
performance thereunder may extend into the ensuing fiscal year” (23 Comp. Gen. 370, 371
(1943)). 1 Multiyear contracting authority provided by statute is an exception to the bona fide
needs rule.

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” 2 When
services are continuing and recurring, they are severable, and the agency may fund the contract
with fiscal year appropriations from the year in which services are provided, unless otherwise
authorized by statute. When services are for a single outcome or effort, they are nonseverable
and therefore chargeable to the fiscal year in which the contract was awarded, even though
performance may extend into subsequent fiscal years.

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for
which the funds are made available. The Antideficiency Act prohibits an agency from obligating
or expending funds in advance of or in excess of an appropriation unless specifically authorized

1
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-24.
2
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-23.


                                                         1
by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires agencies to report violations
to the President and to Congress, with a copy to the Comptroller General (31 U.S.C. § 1351).
Office of Management and Budget Circular A-11, Preparation, Submission and Execution of the
Budget, part 4, § 145, prescribes the methodology for this reporting.

WorldTravelService Indefinite-Delivery, Indefinite-Quantity Contract

On December 3, 2004, the General Services Administration awarded Federal Supply Schedule
GS-33F-0012R, an indefinite-delivery, indefinite-quantity contract to WorldTravelService in
Rockville, Maryland. The contract required WorldTravelService to provide professional travel
agent and related services to Government agencies.

An indefinite-delivery, indefinite-quantity contract provides for the issuance of orders for the
delivery of supplies or services during the fixed period of the Contract. Within set minimum or
maximum limits, agencies place orders for individual needs as they are required. Limits may be
stated as number of units or as dollar values.

National Heart, Lung, and Blood Institute Contract Award

On March 15, 2006, NHLBI awarded delivery order HHSN268-2006-4276G (the Contract),
totaling $131.8 million, 3 against the Federal Supply Schedule contract for a 1-year base period
totaling $20.4 million with four 1-year options. The Contract required WorldTravelService to
provide standardized travel-related services, including airline and ground transportation services,
for reviewers in the NIH Scientific Review and Evaluation Activities program. We determined
that the Contract was for severable services because the services were continuing and recurring
and NHLBI and its reviewers received value when WorldTravelService provided each travel-
related service.

Departmental Review of National Institutes of Health Contracts

In 2008, HHS management formed an internal review group of program, contract, and financial
personnel called the “Tiger Team.” From November 2008 through February 2009, the Tiger
Team assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the 21
NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in which
contract funding was not consistent with the current HHS Acquisition Regulation or
appropriations law. 4 The Tiger Team report did not identify its concerns or quantify funding
errors by contract.




3
 NHLBI initially awarded the Contract to WorldTravelService for $102.8 million. On October 18, 2006, NHLBI
modified the Contract to include booking services for meetings and conference events and direct payments of travel
expenses for foreign reviewers and increased funding accordingly.
4
    Funding Multiple Year Contracts; Tiger Team Summary Report, July 29, 2009.


                                                        2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NHLBI funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

Scope

We reviewed all obligations and selected payments made under the Contract during fiscal years
2006 through 2009. We did not review NHLBI’s internal controls because our objective did not
require such a review.

We performed our fieldwork at NHLBI in Bethesda, Maryland.

Methodology

To accomplish our objective, we:

   •    reviewed appropriations and acquisition laws and regulations and Contract requirements;

   •    reviewed the Tiger Team report;

   •    reviewed contract file documentation, including the statement of work, to determine the
        nature of the products or services to be provided; and

   •    analyzed all funding documents and selected payment vouchers to determine what
        appropriations were obligated, recorded, and expended.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF AUDIT

NHLBI funded the Contract in compliance with the purpose, time, and amount requirements
specified in appropriations statutes. NHLBI had a bona fide need for the items and appropriately
funded the Contract with appropriations from fiscal years 2006 through 2009.




                                                3
